HHS/OIG-AUDIT--Review of NIH Internal Controls Over Purchase Card Activities (A-15-96-80003)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the National Institutes of Health Internal Controls Over Purchase
Card Activities," (A-15-96-80003)
September 5, 1997
Complete Text of Report is available in PDF format
(1.1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of the Office of Inspector General's review
of internal controls over, and use of purchase cards by the National Institutes
of Health (NIH).
The objective of the review was to determine whether NIH has designed and implemented
adequate internal controls over its purchase card activities.
Generally, NIH has designed and implemented adequate management controls over
the use of purchase cards. The General Services Administration (GSA) provided
general guidance to agencies for using purchase cards. We found NIH to be in
compliance with the GSA guidance. Our findings agreed with those of Enterprise
Integration Services, an NIH contractor, which issued a June 1996 report concluding
that NIH was in compliance with all applicable GSA guidance.
However, NIH may not be in compliance with General Accounting Office (GAO)
internal control standard relating to separation of duties. Individual cardholders
were authorized to both order and sign for receipt of goods and services. Internal
control standards issued by GAO specify that key duties, such as authorizing,
approving, and recording transactions; and issuing and receiving assets should
be separated among individuals. The NIH officials identified several compensating
controls that they believe adequately make up for the apparent lack of separation
of key duties and responsibilities; however, they told us that they did not
formally assess the risks in this area.
In addition, NIH cardholders did not always comply with NIH policy and procedures
relating to payment of sales taxes. Six of the 25 cardholders whose transactions
we reviewed improperly paid State sales tax on eight transactions in June and
July 1996. The NIH officials advised us that they would obtain refunds from
the vendors in the eight cases and take additional actions to prevent sales
taxes from being paid in the future.
Our review also showed that sensitive property procurements, such as computer
equipment and cameras were not always entered in property management records
as required by NIH. We were advised by NIH officials that this was due to a
computer programming error which was corrected after we called it to NIH's attention.
We are recommending that NIH:
fully evaluate the effectiveness of controls over the card purchase program
which compensate for the lack of separation of duties;
ensure that cardholders pay no more State sales taxes on card purchases;
revise the property module designed for card purchases so all object classes
designated for sensitive and accountable property trigger electronic alerts
to the property management officials to place decals on such property and
enter them into the property management system; and
review all card purchases and identify all sensitive equipment items that
should have been entered into the property management system and enter them.
The NIH generally concurred with our recommendations.
The National Performance Review (NPR) Report issued by the Vice President in
1993 recommended that agencies promote the use of purchase cards to realize
savings of administrative costs associated with making small purchases. Based
on February 1997 card purchase volume, we estimated that NIH's annual card purchase
volume to be about $17.4 million. The NIH officials advised us that they are
planning to increase the annual card purchases to about $100 million. We believe
that this goal is reasonable. Further, we believe that NIH can increase card
purchases to about $152 million annually if they make card purchases the preferred
means of making small purchases of up to $2,500, as requested by the Deputy
Assistant Secretary for Grants and Acquisition Management (DASGAM). We believe
that at such a volume NIH can save about $4 million in administrative costs
annually.